W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1559

Jamul Action Committee, et. al.

E. Sequoyah Simermeyer, Chairman of the National

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Raymond Hunter, Charlene Chamberlain, Robert Mesa, Richard Tellow, Julia Lotta, Penn National Inc., San
Diego Gaming Ventures, and C.W. Driver.

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Frank Lawrence

Date:

6/9/21

Digitally signed by Frank Lawrence
Date: 2021.06.09 16:32:29 -07'00'

(Type or print) Name Frank Lawrence
Mr.

Ms.

Mrs.

Firm

Law Office of Frank Lawrence

Address

578 Sutton Way, No. 246

City & State

Grass Valley, CA

Phone

(530) 478-0703

Miss

Zip 95945
Email

Frank@FrankLawrence.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Kenneth R. Williams

